                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                               ACTION MEMORANDUM

TO:
AIGI
                                                           FILE NUMBER:
                                                           I01 120027                1   DATE:
                                                                                         Januarv 18.2002

Subject:



           ALLEGATIONS OF GRANT FRAUD
                                                             -C-
Action:

On                                               reported the alleged theft of university funds by
                 a former National Science Foundation (NSF) award Principal Investigator (PI). The report
stated that during an internal audit,                              , a tenured professor at the
                                                                    ,was charged with the theft of $43,080.57
from university and foundation funds. Maryland Attorney General                         ,Jr. filed theft charges
against                in Prince George's County, Maryland. If found guilty,                      races up to 15
years in state prison.                has resigned his position from the university effective 20DECO 1(THR).

Since the                          receives funds from NSF grants an investigation was initiatedllto determine
if any of the suspected embezzled funds were derived from NSF grants. The results of this investigation
disclosed that all but $836.27 ofthe $43,080.57 which                  is suspected to have embezzled came
from non-government funding. The $836.27 consisted of U.S. government funds, these identified in the
                                                                                                 1
audit as having come from a contractor conducting research on a support project for the U.S. Army     Research
Lab. None of embezzled funds came from any NSF grants. With no further investigative leads remaining it
is recommend that this investigation be closed.

COPIES MADE:
                                                                                11
               PREPARED BY                           CLEARED BY

                            -
SURNAME
             -
&TITLE
                -
            AGENT                ATTORNEY          SAC                 AIGI
                        -
                            t
                            ",
               *.-. i
           ,                     --=-.
                                 & "&.YG
                                   P-      -




                                                                                                                   1

                                                         Page 1 of 1
